National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001
                                        November 15, 2010

TO:          Charles F. Bolden, Jr.
             Administrator

             Elizabeth Robinson
             Chief Financial Officer


FROM:        Paul K. Martin
             Inspector General


SUBJECT: Audit of the National Aeronautics and Space Administration’s
         Fiscal Year 2010 Financial Statements (Report No. IG-11-006;
         Assignment No. A-10-005-00)


The Office of Inspector General contracted with the independent public accounting firm
Ernst & Young LLP (EY) to audit NASA’s financial statements in accordance with the
Government Accountability Office’s Government Auditing Standards and the Office of
Management and Budget’s Bulletin No. 07-04, “Audit Requirements for Federal
Financial Statements,” as amended.

The audit resulted in a qualified opinion on NASA’s fiscal year (FY) 2010 financial
statements (Enclosure 1) due to the valuation of property, plant, and equipment (PP&E)
and materials in prior years and the possible effects to the current year statements of net
cost and changes in net position. A qualified opinion means that except for the effects of
the matter to which the qualification relates, the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles. The results of the
FY 2010 audit were a notable improvement over FY 2009 when the Agency received a
disclaimer of opinion due to continued weaknesses in internal controls over accounting
for legacy PP&E.

EY also issued its reports on internal control and compliance with laws and regulations
(Enclosures 2 and 3, respectively). For FY 2010, EY identified two significant
deficiencies in financial reporting internal controls involving NASA’s (1) controls over
PP&E records maintained by contractors and (2) process for estimating environmental
remediation costs. While the Agency has made significant progress addressing PP&E
issues relating to the valuation and completeness of legacy assets, internal controls can
still be enhanced for property managed by contractors and with respect to the Agency’s
potential environmental liabilities. During the audit, EY identified no instances of
significant noncompliance with applicable laws and regulations.
                                                                                            2


In fulfilling our responsibilities under the Chief Financial Officers Act of 1990, we
monitored the progress of the audit, reviewed EY’s reports and related documentation,
inquired of its representatives, and ensured that EY met contractual requirements. Our
review was not intended to enable us to express, and we do not express, an opinion on
NASA’s financial statements; conclusions about the effectiveness of internal controls
over financial reporting; or compliance with certain laws and regulations, including, but
not limited to, the Federal Financial Management Improvement Act of 1996.

EY is responsible for each of the enclosed reports and the conclusions expressed therein.
Our review, while still ongoing, disclosed no instances where EY did not comply in all
material respects with the Government Accountability Office’s Government Auditing
Standards.

Please contact us if you have any questions about the enclosed reports.

3 Enclosures
                                                                      E rns t & Young L L P
                                                                      8484 Westpark Drive
                                                                      McLean, VA 22102

                                                                      Tel: 703-747-1000
                                                                      www.ey.com




                               Report of Independent Auditors


To the Administrator and the Inspector General
of the National Aeronautics and Space Administration


We have audited the accompanying consolidated balance sheet of the National Aeronautics and
Space Administration (NASA) as of September 30, 2010, and the related consolidated statements
of net cost and changes in net position and the combined statement of budgetary resources for the
fiscal year then ended. We were engaged to audit the consolidated balance sheet of NASA as of
September 30, 2009, and the related consolidated statements of net cost and changes in net
position and the combined statements of budgetary resources for the fiscal year then ended.
These financial statements are the responsibility of NASA’s management. Our responsibility is
to express an opinion on these financial statements based on our audits.

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States, the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards and bulletin
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. We were not engaged to perform an audit
of NASA’s internal control over financial reporting. Our audit included consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
NASA’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures
in the financial statements, assessing the accounting principles used and significant estimates
made by management, and evaluating the overall financial statement presentation. We believe
that our audit provides a reasonable basis for our opinion.

During fiscal year 2009, NASA continued its focused efforts to resolve legacy issues identified
in its financial management processes and systems. Although significant progress had been
made, internal controls related to the accounting for property, plant and equipment (PP&E) and
operating materials and supplies (OM&S) were determined to be ineffective in fiscal year 2009.
As a result of these deficiencies in internal control, we were unable to obtain sufficient
competent evidential support for the amounts presented in the consolidated balance sheet as of
September 30, 2009, and the related consolidated statements of net cost and changes in net
position and the combined statements of budgetary resources for the fiscal year then ended.




                                                                                  A member firm of Ernst & Young Global Limited
Report of Independent Auditors
Page 2




Furthermore, these scope limitations affected our ability to audit the following amounts in the
accompanying FY 2010 consolidated statements of net costs and changes in net position: (i) the
beginning balance of cumulative results of operations; (ii) the cumulative effect of a change in
accounting principle for OM&S at October 1, 2009; and (iii) depreciation, PP&E and OM&S
related amounts arising from fiscal year 2009 and prior activity, which enter into the
determination of amounts included in the net cost of operations for fiscal year 2010.

Because of the matters discussed in the preceding paragraph, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the consolidated balance
sheet as of September 30, 2009, and the related consolidated statement of net cost, consolidated
statement of changes in net position, and combined statement of budgetary resources for the
fiscal year then ended.

In our opinion, the fiscal year 2010 financial statements referred to above present fairly, in all
material respects, the financial position of NASA as of September 30, 2010, and its budgetary
resources for the year then ended, and except for the effects of such adjustments, if any, on the
consolidated net cost of operations and consolidated changes in net position of the matters
described above in the third paragraph related to PP&E and OM&S balances, its consolidated net
cost and consolidated changes in net position for the year ended September 30, 2010, in
conformity with accounting principles generally accepted in the United States.

As discussed in Note 6 to the accompanying financial statements, NASA has elected to change
its method of accounting for OM&S from the consumption method to the purchases method as
allowed under Statement of Federal Financial Accounting Standards No. 3, Accounting for
Inventory and Related Property, as of October 1, 2009.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended, we have also issued our reports
dated November 15, 2010, on our consideration of NASA’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations, and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are
an integral part of an audit performed in accordance with Government Auditing Standards and
OMB Bulletin No. 07-04, as amended, and should be considered in assessing the results of our
audit.




                                                                              A member firm of Ernst & Young Global Limited
Report of Independent Auditors
Page 3




Our audits were conducted for the purpose of forming an opinion on the 2010 and 2009 basic
financial statements taken as a whole. The information presented in Management’s Discussion
and Analysis, required supplementary stewardship information, required supplementary
information, and other accompanying information, is not a required part of the basic financial
statements but is supplementary information required by OMB Circular No. A-136. The other
accompanying information has not been subjected to the auditing procedures applied in our audit
of the basic financial statements and, accordingly, we express no opinion on it. For the remaining
information, we have applied certain limited procedures, which consisted principally of inquiries
of management regarding the methods of measurement and presentation of the supplementary
information. However, we did not audit the information and express no opinion on it.




November 15, 2010
McLean, VA




                                                                              A member firm of Ernst & Young Global Limited
                                                                       E rns t & Young L L P
                                                                       8484 Westpark Drive
                                                                       McLean, VA 22102

                                                                       Tel: 703-747-1000
                                                                       www.ey.com




 Report on Internal Control Over Financial Reporting Based on an Audit of the Financial
       Statements Performed in Accordance with Government Auditing Standards


To the Administrator and the Inspector General
of the National Aeronautics and Space Administration


We have audited the financial statements of the National Aeronautics and Space Administration
(NASA or the Agency) as of and for the year ended September 30, 2010, and have issued our
report thereon dated November 15, 2010. That report noted certain matters that resulted in a
qualification of our opinion on the consolidated statements of net cost and changes in net
position for the year ended September 30, 2010. Except for the matters discussed in the third
paragraph of the Report of Independent Auditors, we conducted our audit in accordance with
auditing standards generally accepted in the United States; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.

In planning and performing our audit, we considered NASA’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of NASA’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of NASA’s internal control over financial reporting. We
limited our internal control testing to those controls necessary to achieve the objectives described
in the OMB Bulletin No. 07-04, as amended. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), such as those controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control that might be deficiencies, significant deficiencies or material weaknesses and, therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses
have been identified. We did not identify any deficiencies in internal control that we consider to
be material weaknesses, as defined above. However, we identified certain deficiencies in internal
control over financial reporting, described below, that we consider to be significant deficiencies
in internal control over financial reporting.

                                                                             A member firm of Ernst & Young Global Limited
                                                                       E rns t & Young L L P
                                                                       8484 Westpark Drive
                                                                       McLean, VA 22102

                                                                       Tel: 703-747-1000
                                                                       www.ey.com




A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies related to Enhancements Needed for Controls
over Property, Plant & Equipment Records Maintained by Contractors and Enhancements
Needed for Recognition of Environmental Remediation Costs to be significant deficiencies.


                                     Significant Deficiencies


Enhancements Needed for Controls over Property, Plant & Equipment Records
Maintained by Contractors (new deficiency)

Prior-year audit reviews of NASA’s legacy property, plant & equipment (PP&E) identified
serious weaknesses in the design of internal controls over the completeness and accuracy of
legacy assets, particularly in relation to the International Space Station (ISS) and Space Shuttles,
which prevented material misstatements from being detected and corrected in a timely manner
by NASA. During FY 2009 and FY 2010, NASA management undertook a systematic process to
address the valuation and completeness issues related to the ISS and Space Shuttle assets as well
as other PP&E in connection with the release of the Federal Accounting Standards Advisory
Board (FASAB) Statement of Federal Financial Accounting Standards (SFFAS) No. 35,
Estimating the Historical Cost of G-PP&E. This standard permits use of estimate approaches,
which substantially improved NASA’s ability to account for these assets in accordance with
generally accepted accounting principles (GAAP) in FY 2010. Also assisting in remediation of
this finding was that Space Shuttle assets have been fully depreciated in FY 2010 as they have
reached the end of their estimated useful lives and this timing reasonably coincides with the
Space Shuttle Transition and Retirement program. In addition, NASA reassessed and concluded
that certain property classified as operating materials and supplies should be accounted for by the
purchases method and not reflected on the NASA balance sheet as an asset. Adoption of
changes in the internal control process associated with new contracts implemented in prior years
also assisted in resolution of legacy property issues. Notwithstanding this significant progress,
internal controls related to PP&E can continue to be enhanced, with particular emphasis on the
approaches used to validate property managed by contractors. With many of the most intractable
issues resolved through implementation of SFFAS No. 35, the remaining matters merit continued
focus.

NASA is heavily dependent on activities at its contractors to recognize assets created at its
contractors and the contractors’ reporting of property transactions via the Contractor Held Asset
Tracking System (CHATS) and quarterly reporting detail. All NASA contractors have their own
procedures and systems for maintaining, valuing, inventorying and accounting for NASA
property. Certain contractors report contractor-held property balances maintained on NASA’s




                                                                             A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 3



behalf monthly/quarterly via CHATS. These transactions are then recorded in the Asset
Accounting module of SAP by NASA to reflect the capitalized balances associated with
contracts that have been determined to meet NASA’s capitalization policy. The remaining
contractors report their NASA-owned properties annually.

Over the past several years, NASA has developed a suite of overarching detect controls to assist
in mitigating the risk of a material financial statement error in the property accounts. An
example of these detect controls is the Continuous Monitoring Program conducted by center and
agency-level personnel on a routine basis to assist NASA in identifying and correcting errors and
discrepancies in a timely manner, as well as confirming that ongoing management reviews and
validations of financial data and internal controls are taking place. Another example includes the
validation procedures over property amounts reported by the contractors via CHATS as well as a
reconciliation of CHATS property balances to those recorded by NASA in the Asset Accounting
module of SAP, such that contracts and property deemed by NASA to be research and
development are excluded from NASA’s balance sheet. These overarching monitoring controls
coupled with agency-wide budgetary controls were established to detect errors of significance to
the financial statements. While relatively less direct NASA involvement has been devoted to
ensuring that contractor controls are functioning as designed, the broad requirements for
contractor property management systems are reflected in contract terms. NASA has some
visibility into how individual contractors design and operate their property management systems
through the Defense Contract Management Agency (DCMA) reviews and the activities of
property administrators, as well as through limited Defense Contract Audit Agency (DCAA)
reviews. The timing and scope of these reviews do not always facilitate timely recognition of
issues, or provide NASA with a basis of reliance on the procedures absent further efforts by
NASA.

Most notable of NASA’s contractor-held related property is the ISS, which at September 30,
2010, represented approximately $6.3 billion or 66% of NASA’s total property balance. The
majority of the ISS costs capitalized is derived from one contractor. During the current fiscal
year, this contractor reported inaccuracies in its quarterly submissions of data to NASA via
CHATS. Specifically, in the second quarter reporting submission, upon delivery of the final ISS
components to NASA (the United States On-Orbit Segment), the contractor reported a decrease
in its work-in-process, but did not appropriately reflect a corresponding increase in its other
property balances as submitted to NASA. NASA management discovered and questioned the
contractor regarding these unusual relationships as part of their validation and monitoring
process, and elected to not record changes to their property records in the general ledger for the
questioned items, pending further review. In the contractor’s third quarter reporting submission,
the contractor reported a $1.1 billion adjustment. NASA was unaware of the details and
justification for this adjustment at the time of submission. Again, NASA elected to not record
changes to their property records pending further review and validation with the contractor.
During the fourth quarter, NASA recorded a $644 million adjustment to account for the second



                                                                   A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 4




quarter error and NASA management invalidated the $1.1 billion adjustment reported by the
contractor in the third quarter. The process NASA used to correct such items validates the
effectiveness of some of the financial management review processes to detect errors of financial
statement significance. However, identification of a further potential adjustment initially
proposed by a contractor late in FY 2010 and ultimately not made, highlights the need for
NASA to continue to work with contractors to develop robust controls to prevent errors in the
underlying records and the initial submission of data from its contractors, such that items of
significance are agreed to by NASA and the contractors prior to submission in CHATS and can
be recorded by NASA in a timely manner to facilitate the preparation of quarterly financial
statements and other reports.

At our request, NASA performed high-level analytic reviews and then deconstructed FY 2010
property-related activity and critically assessed whether the interrelationships within the recorded
amounts comported with management’s understanding of expected results based on the activities
executed during the year, which might reasonably have been expected to give rise to accounting
entries. This effort, which highlighted a number of anomalies, including previously unexplained
variations in depreciation and accumulated depreciation amounts, and differences between
estimates of contractor-held property activity reflected in accrual estimates and actual amounts as
reflected in subsequent contractor reporting, was useful in correcting misstatements before
issuance of the FY 2010 financial statements and in assessing the largely offsetting impacts of
differences on prior reported amounts. The interactions with Centers, contractors and property
management personnel required to understand the flows reflected were useful in enhancing
NASA’s understanding of its recorded amounts and proposed adjustments. These efforts were
complicated by NASA processes which do not facilitate identification of net property addition or
deletion activity, with transfers between line item classifications, between contractors, and
between contractors and the government each recorded in the detail records. Customized
reporting is not yet sufficiently refined to facilitate the analysis. Management acknowledges that
these overarching analytical techniques are under development, and will be critical aspects of
NASA’s ability to report and interpret property-related activities.

Recommendation

Based on the significant reliance placed on contractor systems, we suggest that management
revisit the extent to which such systems merit improvement in controls and revisit the extent of
independent testing performed to assist in reducing the possibility that errors that are other than
inconsequential may occur and not be detected by the system of overarching detect controls
NASA has put in place.




                                                                     A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 5



We recommend that NASA:
    1. Continue to enhance its understanding of the design, implementation and functioning of
       control activities in place at its contractors and assess the extent to which further
       refinement is needed to assist in preventing errors or their early detection and correction
       within the contractors.
    2. Revisit the extent of evaluation and testing of property-related systems under the OMB
       Circular No. A-123 process, DCAA activities or potentially other constructs, including
       assessing the merits of obtaining more timely and comprehensive assurance regarding
       contractor systems of internal control in light of the significance of the amounts
       processed in relation to the financial statements and assets of NASA.
    3. Develop preventative controls with its contractors on items of significance prior to the
       contractors’ submissions of property data to NASA. Co-developing thresholds for
       validation and concurrence prior to the submission process with the contractor is key to
       the development of an effective control.
    4. Continue to refine the PP&E analytic tools developed late in FY 2010 to assist in
       conducting reasonableness reviews and further assessing the fair presentation of NASA
       property activity on at least a quarterly basis. This effort should include developing
       customized reporting tools to access and summarize in readily interpreted formats the
       information reflected in NASA’s property records.

Enhancements Needed for Recognition of Environmental Remediation Costs (modified
repeat deficiency)

NASA’s environmental liability is estimated at $1,041 million as of September 30, 2010,
including the estimated environmental cleanup cost associated with PP&E. We noted that the
NASA Office of the Chief Financial Officer (OCFO) and the Office of Strategic Infrastructure
(OSI) invested resources to enhance internal controls for its contingent environmental
remediation liabilities. The joint review process, a key control, further matured in FY 2010 by
improving training and consistency to the environmental remediation estimation process. NASA
also retained a third-party consultant to develop an estimate of the environmental cleanup costs
for PP&E not related to the Space Shuttle Program (SSP). While NASA continues to make
progress, we noted weaknesses in NASA’s ability to generate a consistent estimate of its
contingent environmental remediation costs and its environmental cleanup costs associated with
PP&E. Specifically:
    1. NASA lacks an ongoing validation program to assess the accuracy of remedial estimates
       generated through the use of the Integrated Data Evaluation and Analysis Library
       (IDEAL) tool.    NASA uses algorithms in the IDEAL tool to develop remediation
       estimates when detailed user-defined engineering estimates are not available. The
       algorithms were checked against actual results in a series of studies conducted in 2007




                                                                    A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 6



        and 2008. Differences were noted in these studies and recommendations were made to
        improve the tool’s performance. However, NASA has not developed and implemented a
        process to periodically validate and update the model based on actual costs.
    2. Reasonably possible and estimable and reasonably possible and non-estimable
       disclosures can be enhanced by the joint review process: The joint review process does
       not consistently include documentation of the review and classification of costs other
       than those that are probable and estimable.
    3. SFFAS No. 6 costs are categorized in SFFAS No. 5 data sets: In FY 2009, NASA
       updated its environmental liability process to differentiate those liabilities that are
       remedial in nature and recognized in accordance with SFFAS No. 5 Accounting for
       Liabilities of the Federal Government, and those environmental cleanup liabilities that
       are known when the asset is placed in service and recognized in accordance with SFFAS
       No. 6. Certain landfill operations, storage tanks and the decommissioning of Plum Brook
       nuclear reactor are environmental cleanup and closure obligations. NASA has not
       reclassified these estimates, in some cases because the cleanup has historically been
       included in the SFFAS No. 5 environmental liability but has elements of a SFFAS No. 6
       liability as well.
    4. Environmental control processes are not updated in a timely manner: NASA Procedural
       Requirement (NPR) 8590.1, NASA Environmental Compliance and Restoration (ECR)
       Program; (effective June 14, 2007 and updated in 2010) does not reference the joint
       process review, a key control in the review of unfunded environmental liabilities. The
       joint process reviews have been a critical control in the annual estimation process since
       FY 2008. Furthermore, NPR 9260.1 Revenue, Unfunded Liabilities and Other Liabilities
       (effective September 30, 2008) does not capture the process used to gather PP&E cleanup
       costs related to the Space Shuttle or other applicable programs.
        The procedures engaged in by the Space Operations Mission Directorate (SOMD) to
        develop the estimate of SSP PP&E cleanup costs are based on efforts necessary to adhere
        to annual planning, programming, budgeting and execution (PPBE) requirements. These
        steps and support are then modified by the SOMD to project probable and reasonably
        possible environmental liabilities used for financial reporting. Current NASA guidance
        does not specify the actions to be taken by OCFO to review, recognize, or record the
        estimate or identify control activities or procedures to aid in ensuring that the recorded
        amounts are appropriate.
    5. NASA has not completed its development of procedures or estimates to record and
       disclose asbestos cleanup costs. During our testing at the Marshall Space Flight Center
       (MSFC) we were made aware of an Asbestos Information System database that housed
       information on both friable and non-friable asbestos located in buildings and equipment
       throughout MSFC that did not pose an immediate health hazard. NASA’s management
       has stated that asbestos cleanup costs associated with friable asbestos that constitutes an




                                                                    A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 7



        immediate health hazard are recognized when identified. NASA indicated that costs for
        the removal of friable and nonfriable asbestos that does not pose an immediate health
        hazard but that will be removed in connection with a future demolition or modification
        have not been recorded. NASA indicated that it will be required to recognize those costs
        in FY 2012 under applicable guidance. The applicable FASAB guidance deferring
        recognition of certain asbestos costs that do not pose an immediate health hazard in
        connection with implementation of SFFAS No. 6 acknowledges the difficulties agencies
        may have in developing comprehensive inventories of such materials and cleanup
        estimates. Further refinement of NASA processes in these areas may be required to meet
        the objectives of SFFAS No. 6.

Recommendation

Notwithstanding that progress has been made during FY 2010, we suggest that management
revisit the internal controls related to NASA’s ability to generate a consistent estimate of its
contingent environmental remediation costs and its environmental cleanup costs associated with
PP&E to assist in reducing the possibility that errors that are other than inconsequential may
occur and not be detected by the system of overarching detect controls NASA has put in place.

We recommend that NASA:

    1. Complete the development and implementation of the application controls that ensure the
       accuracy of the output (e.g., cost tables, markups, and contingencies). This includes
       completing and documenting the verification of the IDEAL parametric model output and
       aggregation functions to validate the reliability of the output.
    2. Amend the joint review process documentation to require the classification of costs that
       are other than probable and estimable into assigned categories (e.g., probable but not-
       estimable, reasonably possible and estimable, reasonably possible but not estimable, and
       remote) and retain documentation related to significant judgments regarding responsible
       parties, classification and components of the estimates.
    3. Reclassify environmental liabilities that are managed as contingent environmental
       liabilities in accordance with SFFAS No. 5 and that are more appropriately managed as
       environmental cleanup costs in accordance with SFFAS No. 6.
    4. Update or develop a separate process for NPR 8590.1, NASA Environmental Compliance
       and Restoration (ECR) Program to reference the joint process review and NPR 9260.1,
       Revenue, Unfunded Liabilities and Other Liabilities, with the process to be developed as
       pertaining to PP&E cleanup estimation procedures for program transition and retirement
       efforts, or craft a separate process to capture these concerns.




                                                                  A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 8



    5. Implement preventative actions (i.e., controls) to address policies, procedures and
       guidance related to the SSP PP&E cleanup estimation process. Specifically, assign roles
       and responsibilities for implementation of completeness and valuation testing procedures
       to relevant OSI and OCFO personnel. Estimation procedures should also be compared to
       assess compliance with SFFAS No. 6, Technical Release 2 and Technical Release 11
       guidance.
    6. Facilitate the development of a procedure, in conjunction with other appropriate NASA
       entities (e.g., Environmental Management Division, Health and Safety, Facilities
       Management), to identify, estimate and document friable and nonfriable asbestos
       abatement costs in circumstances in which an immediate health hazard does not exist in
       accordance with the applicable FASAB guidance prior to its effective date.


                                        Other Matters


                             STATUS OF PRIOR-YEAR FINDINGS


In the reports on the results of the FY 2009 audit of the NASA’s financial statements, a number
of issues were raised relating to internal control. The chart below summarizes the current status
of the prior year items:

                                     Material Weakness
        Issue Area                Summary Control Issue                        FY 2010 Status
Enhancements Needed •           Certain legacy issues noted in         Substantially remediated.
for Controls over Legacy        prior-year audit reports continue      New observation related
PP&E and Materials              to challenge the Agency,               to SFFAS No. 35
Contracts, But SFFAS            particularly in relation to the        implementation          and
No. 35 Adoption May             ISS and Space Shuttles. SFFAS          contractor-held property
Aid In Resolving This           No. 35 is expected to                  reflected herein as a
Longstanding Issue              substantially improve NASA’s           significant deficiency.
                                ability to account for these
                                assets in accordance with GAAP
                                in FY 2010.




                                                                    A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 9




                                     Significant Deficiencies
        Issue Area                   Summary Control Issue                     FY 2010 Status
Processes in Estimating      •   Design and implementation of          Significant progress has
NASA’s Environmental             controls for NASA’s IDEAL             been        noted;      but
Liability Continue to            estimating software have not          deficiencies still remain
Require Enhancement              been completed.                       as     reported     as    a
                                                                       significant      deficiency
                             •   Certain controls surrounding the
                                                                       herein.
                                 process to value unfunded
                                 environmental liabilities need
                                 further enhancements.
Financial Management •           Real property system not              Substantially remediated.
Systems     Not     in           integrated with the Core              Significant improvements
Substantial Compliance           Financial Module                      noted with the integration
with Federal Financial                                                 of the real property
                       •         Issues related to IT access and
Management                                                             system to the core
                                 change management identified          financial module and the
Improvement Act
                       •         NASA did not meet certain             implementation          of
                                 requirements      to   ensure         SFFAS No. 35 to
                                 compliance      with  federal         overcome certain issues
                                 accounting standards.                 within the property area.
                                                                       Certain less significant
                                                                       matters               and
                                                                       interrelationships   with
                                                                       the work of other auditors
                                                                       have been brought to the
                                                                       attention of management.



                                 *        *      *      *       *


We have reviewed our findings and recommendations with NASA management. Management
generally concurs with our findings and recommendations and will provide a corrective action
plan to address the findings identified in this report. We did not audit NASA’s response, and
accordingly, we express no opinion on it.




                                                                    A member firm of Ernst & Young Global Limited
Report on Internal Control
Page 10



This report is intended solely for the information and use of the management and the Office of
Inspector General of NASA, OMB, the Government Accountability Office and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




November 15, 2010
McLean, VA




                                                                 A member firm of Ernst & Young Global Limited
                                                                     E rns t & Young L L P
                                                                     8484 Westpark Drive
                                                                     McLean, VA 22102

                                                                     Tel: 703-747-1000
                                                                     www.ey.com




 Report on Compliance and Other Matters Based on an Audit of the Financial Statements
             Performed in Accordance with Government Auditing Standards


To the Administrator and the Inspector General
of the National Aeronautics and Space Administration


We have audited the financial statements of the National Aeronautics and Space Administration
(NASA) as of and for the year ended September 30, 2010, and have issued our report thereon
dated November 15, 2010. That report noted certain matters that resulted in a qualification of
our opinion on the consolidated statements of net cost and changes in net position for the year
ended September 30, 2010. Except for the matters discussed in the third paragraph of the Report
of Independent Auditors, we conducted our audit in accordance with auditing standards generally
accepted in the United States, the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States, and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended.

As part of obtaining reasonable assurance about whether NASA’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 07-04, as amended, including the requirements referred to in the Federal
Financial Management Improvement Act of 1996. We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to NASA.

The results of our tests disclosed no instances of noncompliance with the laws and regulations
discussed in the preceding paragraph or other matters that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management and the Office of
Inspector General of NASA, OMB, the Government Accountability Office, and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




November 15, 2010
McLean, VA

                                                                                 A member firm of Ernst & Young Global Limited
